No. ___________
IN THE
SUPREME COURT OF THE UNITED STATES

ALFRED LEE HANZY, JR.
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Kelly Margolis Dagger
Counsel of Record
Paul K. Sun, Jr.
Ellis & Winters LLP
Post Office Box 33550
Raleigh, North Carolina 27636
(919) 865-7000
Counsel for Petitioner
Alfred Lee Hanzy, Jr.

USCA4 Appeal: 18-4900

Doc: 62

Filed: 03/18/2020

Pg: 1 of 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4900
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ALFRED LEE HANZY, JR., a/k/a Kat,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Greenville. Terrence W. Boyle, Chief District Judge. (4:16-cr-00069-BO-1)
Submitted: December 30, 2019

Decided: March 18, 2020

Before KING, DIAZ, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Kelly Margolis Dagger, Paul K. Sun, Jr., ELLIS & WINTERS, LLP, Raleigh, North
Carolina, for Appellant. Robert J. Higdon, Jr., United States Attorney, Jennifer P. MayParker, Assistant United States Attorney, Phillip A. Rubin, Assistant United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Raleigh, North Carolina,
for Appellee.
Unpublished opinions are not binding precedent in this circuit.

APPENDIX A

USCA4 Appeal: 18-4900

Doc: 62

Filed: 03/18/2020

Pg: 2 of 3

PER CURIAM:
Alfred Lee Hanzy pleaded guilty, without a written plea agreement, to possession
with intent to distribute cocaine and cocaine base, in violation of 21 U.S.C. § 841(a)(1)
(2018), and maintaining a place for the purpose of manufacturing, distributing, or using
controlled substances, in violation of 21 U.S.C. § 856(a)(1) (2018). On appeal, Hanzy
contends that his 84-month upward variant sentence is procedurally and substantively
unreasonable. For the following reasons, we affirm.
We review criminal sentences for both procedural and substantive reasonableness
“under a deferential abuse-of-discretion standard.” United States v. Lynn, 912 F.3d 212,
216 (4th Cir. 2019) (internal quotation marks omitted), cert. denied, 140 S. Ct. 86 (2019).
“In determining procedural reasonableness, we consider, among other things, whether the
court . . . considered the 18 U.S.C. § 3553(a) [(2018)] factors, and sufficiently explained
the selected sentence.” Id. “The sentencing judge should set forth enough to satisfy the
appellate court that he has considered the parties’ arguments and has a reasoned basis for
exercising his own legal decisionmaking authority.” Rita v. United States, 551 U.S. 338,
356 (2007). This standard requires the district court to “address or consider all nonfrivolous reasons presented for imposing a different sentence and explain why he has
rejected those arguments.” United States v. Ross, 912 F.3d 740, 744 (4th Cir. 2019), cert.
denied, 140 S. Ct. 206 (2019). “[A] perfunctory recitation of the defendant’s arguments or
the § 3553(a) factors without application to the defendant being sentenced does not
demonstrate reasoned decisionmaking or provide an adequate basis for appellate review.”
United States v. Blue, 877 F.3d 513, 518 (4th Cir. 2017) (internal quotation marks omitted).
2

USCA4 Appeal: 18-4900

Doc: 62

Filed: 03/18/2020

Pg: 3 of 3

Rather, “the district court must provide some individualized assessment justifying the
sentence imposed and rejection of arguments for a higher or lower sentence based on
§ 3553.” Ross, 912 F.3d at 744 (internal quotation marks omitted).
After reviewing the record, we conclude that Hanzy’s sentence is procedurally
reasonable. The district court sufficiently explained its chosen sentence, as it specifically
explained that it found Hanzy’s criminal history to be extraordinary, recognized that Hanzy
had previously been convicted for multiple drug trafficking offenses, and noted that Hanzy
would have been classified as a career offender under the Sentencing Guidelines if his full
criminal history had been scored. The district court’s statements highlighting that Hanzy
was still selling drugs, albeit now from his house, also adequately explained its rejection
of Hanzy’s argument that there was a relevant distinction between his current conviction
and his prior convictions. Because Hanzy’s sentence is procedurally sound, we have also
considered whether his sentence is substantively reasonable, and our review of the record
leads us to conclude that it is.
Accordingly, we affirm the judgment of the district court. We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before the court and argument would not aid the decisional process.
AFFIRMED

3

